No. ______

IN THE

SUPREME COURT OF THE UNITED STATES
DEREK HUTTER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
to the Fifth Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

i
A. QUESTION PRESENTED FOR REVIEW
Whether the court of appeals improperly denied
the Petitioner a certificate of appealability under 28
U.S.C. § 2253(c) on his claim(s) that his counsel
rendered ineffective assistance of counsel by (1) failing
to advise the Petitioner regarding available defenses in
this case and/or (2) failing to object to the sentencing
court’s consideration of an impermissible factor during
the sentencing hearing.

ii
B. PARTIES INVOLVED
The parties involved are identified in the style
of the case.

iii
C. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTION PRESENTED FOR REVIEW. . . i

B.

PARTIES INVOLVED . . . . . . . . . . . . . . . . . . ii

C.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
1.

Table of Contents . . . . . . . . . . . . . . . . iii

2.

Table of Cited Authorities . . . . . . . . . iv

D.

CITATION TO OPINION BELOW . . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . . . . . 1

F.

CONSTITUTIONAL PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

G.

STATEMENT OF THE CASE
AND STATEMENT OF THE FACTS. . . . . . . 2

H.

REASON FOR GRANTING THE WRIT . . . . 4
The question presented is important . . . . . . . 4

I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . 28

J.

APPENDIX

iv
2.

TABLE OF CITED AUTHORITIES

a.

Cases

Boykin v. Alabama, 395 U.S. 238 (1969). . . . . . . . . 10
Brown v. State,
892 So. 2d 1119 (Fla. 2d DCA 2004) . . . . . . . 12
Bryan v. United States,
492 F. 2d 775 (5th Cir. 1974) . . . . . . . . . . . . 16
Calder v. Bull, 3 Dall. 390 (1797) . . . . . . . . . . . . . . 25
Cole v. Arkansas, 333 U.S. 196 (1948). . . . . . . . . . . 25
Douglas v. Wainwright,
714 F.2d 1532 (11th Cir. 1983) . . . . . . . . 12-13
Goodwin v. Balkcom,
684 F.2d 794 (11th Cir. 1982) . . . . . . . . . . . . 12
Gray v. State,
964 So. 2d 884 (Fla. 2d DCA 2007) . . . . . . . . 24
Hill v. Lockhart, 474 U.S. 52 (1985) . . . . . . . . . 12-13
Ivy v. Caspari, 173 F.3d 1136 (8th Cir. 1999) . . . . . 17
Machibroda v. United States,
368 U.S. 487 (1962) . . . . . . . . . . . . . . . . . 14-15

v
McGraw v. United States,
106 F.3d 391 (4th Cir. 1997) . . . . . . . . . . 17-18
McMann v. Richardson, 397 U.S. 759 (1970) . . . 2, 11
Miller-El v. Cockrell, 537 U.S. 322 (2003). . . . . 19, 26
Putman v. Head, 268 F.3d 1223 (11th Cir. 2001) . . 13
Raines v. United States,
423 F.2d 526 (4th Cir. 1970) . . . . . . . . . . . . . 15
Roe v. Flores-Ortega, 528 U.S. 470 (2000). . . . . . . . 13
Rouse v. Brown, 2010 WL 569749
(W.D. Kent. Feb. 11, 2010) . . . . . . . . . . . 15-16
Savino v. Murray, 82 F.3d 593 (4th Cir. 1996). 17-18
Seays v. State,
789 So. 2d 1209 (Fla. 4th DCA 2001) . . . . . . 24
State v. Potts, 526 So. 2d 63 (Fla. 1988) . . . . . . . . . 24
Strickland v. Washington,
466 U.S. 668 (1984) . . . . . . . . . . . . . . 11-13, 26
United States v. Cardenas,
302 Fed. Appx 14 (2d. Cir. 2008) . . . . . . . . . 15
United States v. Hutter,
668 Fed. Appx 143 (5th Cir. 2016) . . . . . . . . . 2

vi
United States v. Merrill,
340 Fed. Appx. 976 (5th Cir. 2009). . . . . . . . 14
United States v. Silverman,
976 F.2d 1502 (6th Cir. 1992) . . . . . . . . . . . . 25
Yisrael v. State,
65 So. 3d 1177 (Fla. 1st DCA 2011) . . . . . . . 24

b.

Statutes

18 U.S.C. § 2422(b). . . . . . . . . . . . . . . . . . . . . 2, 20, 23
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2253(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . i
28 U.S.C. § 2253(c)(2). . . . . . . . . . . . . . . . . . . . . . 4, 18
28 U.S.C. § 2255 . . . . . . . . . . . . . . . . 2-5, 14-16, 18-19

c.

Other Authority

U.S. Const. amend. V . . . . . . . . . . . . . . . . . . 10, 24-25
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . 1, 11

1
The Petitioner, DEREK HUTTER, requests the
Court to issue a writ of certiorari to review the
judgment/order of the Fifth Circuit Court of Appeals
entered in this case on March 20, 2020. (A-4).1

D. CITATION TO ORDER BELOW
The order below was not reported.

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant
to 28 U.S.C. § 1254 to review the final judgment of the
Fifth Circuit Court of Appeals.

F.
CONSTITUTIONAL
INVOLVED

PROVISION

The Sixth Amendment to the Constitution

1

References to the appendix to this petition will be made
by the designation “A” followed by the appropriate page number.

2
provides that “[i]n all criminal prosecutions, the
accused shall enjoy the right to . . . have the Assistance
of Counsel for his defence.” “[T]he right to counsel is
the right to the effective assistance of counsel.”
McMann v. Richardson, 397 U.S. 759, 771, n.14 (1970).

G. STATEMENT OF THE CASE
The Petitioner was convicted – following a guilty
plea – of enticement of a minor pursuant to 18 U.S.C.
§ 2422(b). The district court sentenced the Petitioner
to 264 months’ imprisonment. On direct appeal, the
Fifth Circuit Court of Appeals affirmed the conviction
and sentence. See United States v. Hutter, 668 Fed.
Appx 143 (5th Cir. 2016).
The Petitioner subsequently filed a motion
pursuant to 28 U.S.C. § 2255. The Petitioner raised
three claims in the motion – two of which are the

3
subject of the instant petition: (1) defense counsel
rendered ineffective assistance of counsel by failing to
advise the Petitioner regarding available defenses in
this case and (2) defense counsel rendered ineffective
assistance of counsel by failing to object to the
sentencing court’s consideration of an impermissible
factor during the sentencing hearing. On December
26, 2018, the magistrate judge issued a report and
recommendation recommending that the claims raised
in the Petitioner’s § 2255 motion be denied. (A-13). On
February 8, 2019, the district court entered an order
adopting the report and recommendation (and a
judgment was entered on that same day). (A-9 & A-7).
The Petitioner thereafter filed an application for
a certificate of appealability in the Fifth Circuit Court
of Appeals. On March 20, 2020, a single circuit judge
denied a certificate of appealability on the Petitioner’s

4
§ 2255 claims. (A-4). The circuit judge’s order contains
no analysis and merely concludes – in summary
fashion – that the Petitioner “has not made the
required

showing”

to

obtain

a

certificate

of

appealability. (A-5).

H. REASON FOR GRANTING THE WRIT
The question presented is important.
The Petitioner contends that the Fifth Circuit
erred by denying him a certificate of appealability on
his ineffective assistance of counsel claims.
explained below,

the

Petitioner has

As

made “a

substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2).
In his § 2255 motion, the Petitioner raised two
ineffective assistance of counsel claims. Both of these
claims are addressed in turn below.

5
1.
Defense counsel rendered ineffective
assistance of counsel by failing to advise the
Petitioner regarding available defenses in this
case.
In his § 2255 motion, the Petitioner alleged that
defense counsel rendered ineffective assistance of
counsel by failing to advise him regarding available
defenses in this case. The charge in this case concerns
an alleged sexual relationship between the Petitioner
and a minor.2 At the time that the charge was brought,
the Petitioner was the youth minister at a church and
the alleged victim was one of the females in the church
youth group. The Petitioner denies engaging in an
improper sexual relationship with the alleged victim.
After the Petitioner was charged, he retained
defense counsel.

2

The Petitioner informed defense

The Government asserted that the alleged victim was
between thirteen and fourteen years old at the time of the
purported charge.

6
counsel that he was innocent and that he did not
engage in a sexual relationship with the alleged victim.
In response, defense counsel said to the Petitioner that
“we can’t beat this” and “if you don’t enter a guilty
plea, you will get the maximum sentence and never see
your wife and daughter again.”

Defense counsel

further told the Petitioner that if he did enter a guilty
plea, his sentence would likely be between five and ten
years of imprisonment. In light of defense counsel’s
advice, the Petitioner had no choice but to enter a
guilty plea in this case because his attorney told him
that he had no defense to the charge in this case.
Contrary to defense counsel’s advice, the
Petitioner did have viable defenses in this case. At the
time of the charge, the alleged victim was dealing with
several matters and she used the charge in this case to
deflect and avoid getting in trouble. Specifically, the

7
alleged victim was engaged in a physical relationship
with a boyfriend, but her parents were unaware of the
boyfriend – and at the time of the charge in this case,
the relationship with the boyfriend was about to be
exposed.

In order to avoid the exposure and

punishment, the alleged victim falsely informed her
parents that she was involved in a relationship with
the Petitioner.
Additionally, the alleged victim had an addiction
to pornography websites (and a review of her electronic
media and databases confirmed this problem).
Moreover, the alleged victim had a reputation in the
community for being untruthful. Finally, weeks before
the charge in this case, the alleged victim had been
caught at a church retreat with another male. With all
of these matters bubbling up around the alleged
victim, the alleged victim used the charge in this case

8
to deflect from her own problems and avoid exposure
and punishment. To substantiate these assertions, the
Petitioner submitted his own affidavit/declaration
affirming the facts set forth above (A-36) and affidavits
from people associated with the Petitioner, the
Petitioner’s church, and the alleged victim. (A-38, A-43
& A-47).
After the Petitioner was charged, he discussed
these matters with defense counsel. Defense counsel,
however, told the Petitioner that none of these matters
were relevant. Defense counsel failed to inform the
Petitioner that if he proceeded to trial, he would have
been entitled to introduce this information to
demonstrate that the alleged victim was fabricating
the charge in this case.3

3

The Petitioner also notes that he has unique anatomical
features – features that the alleged victim has not mentioned in
any statements, but features that she would be aware of had she

9
Defense counsel also discussed with the
Petitioner

the

electronic

communications

that

purportedly took place between the Petitioner and the
alleged victim. Defense counsel told the Petitioner
that in light of some of the communications, the
Petitioner could not “beat the charge in this case.”
However, the Petitioner informed defense counsel that
his cellphone and computer were accessible by
everyone in the church and his passwords to these
devices were in plain view to anyone who entered his
office. Despite being aware of this, defense counsel
stood by his position that the Petitioner had no defense
to the charge in this case. The Petitioner also notes
that the communications referenced by defense counsel
do not constitute proof that the Petitioner and the
alleged victim were engaged in a sexual relationship.

actually been involved in a sexual relationship with the Petitioner.

10
After the Petitioner was convicted, he conducted
his own research and consulted with different counsel
and he learned, for the first time, that he did, in fact,
have viable defenses in this case (as set forth above).
Had defense counsel properly told the Petitioner about
his viable defenses in this case, the Petitioner would
not have entered a guilty plea and instead would have
proceeded to trial and presented these defenses.
The Fifth Amendment to the Constitution
requires that a criminal defendant’s decision to waive
the right to a jury trial and enter a guilty plea must be
“knowing, intelligent, and voluntary.” See Boykin v.
Alabama, 395 U.S. 238, 242-244 (1969) (recognizing
that a defendant’s decision to plead guilty involves the
simultaneous waiver of several constitutional rights
and, hence, waiver must be knowingly and voluntarily
made by defendant).

11
The Sixth Amendment to the Constitution
guarantees a criminal defendant the right to counsel,
and this right to counsel implicitly includes the right
to effective assistance of counsel.

See McMann v.

Richardson, 397 U.S. 759, 771 n.14 (1970).

The

familiar test utilized by courts in analyzing ineffective
assistance of counsel claims is as follows:
First, the defendant must show that
counsel’s performance was deficient. This
requires showing that counsel made
errors so serious that counsel was not
functioning as the “counsel” guaranteed
the defendant by the Sixth Amendment.
Second, the defendant must show that
the deficient performance prejudiced the
defense. This requires showing that
counsel’s errors were so serious as to
deprive the defendant of a fair trial, a
trial whose result is reliable. Unless a
defendant makes both showings, it
cannot be said that the conviction or
death sentence resulted from a
breakdown in the adversarial process
that renders the result unreliable.
Strickland v. Washington, 466 U.S. 668, 687 (1984).

12
The

two-part

Strickland

test

applies

to

challenges of guilty pleas based on ineffective
assistance of counsel. See Hill v. Lockhart, 474 U.S.
52, 58 (1985). Pursuant to Hill, a defendant must
show (1) that counsel’s representation fell below an
objective standard of reasonableness, and (2) that there
is a reasonable probability that “but for counsel’s
errors, he would not have pleaded guilty and would
have insisted on going to trial.” Id. at 59.
“An attorney has a duty to make reasonable
investigations in his or her cases.” Brown v. State, 892
So. 2d 1119, 1119 (Fla. 2d DCA 2004). “At the heart of
effective representation is the independent duty to
investigate and prepare [the client’s case.]” Goodwin
v. Balkcom, 684 F.2d 794, 805 (11th Cir. 1982).
“Permissible trial strategy can never include the
failure

to

conduct

a

reasonably

substantial

13
investigation.” Douglas v. Wainwright, 714 F.2d 1532,
1556 (11th Cir. 1983). “The relevant question is not
whether counsel’s choices were strategic, but whether
they were reasonable.” Putman v. Head, 268 F.3d
1223, 1244 (11th Cir. 2001) (quoting Roe v.
Flores-Ortega, 528 U.S. 470, 481 (2000)). A guilty plea
is not entered knowingly, intelligently, and voluntarily
if the defendant does not have knowledge of viable
defenses to the crime.
Accordingly,

applying

the

Strickland/Hill

standard to this case, defense counsel was ineffective
for failing to advise the Petitioner regarding available
defenses in this case. Counsel’s failure fell below the
applicable standard of performance. Absent counsel’s
ineffectiveness in the instant case, the result of the
proceeding would have been different (i.e., the
Petitioner would not have entered a guilty plea) and/or

14
counsel’s ineffectiveness affected the fairness and
reliability of the proceeding, thereby undermining any
confidence in the outcome.
In

the

report

and

recommendation,

the

magistrate judge cited an unpublished opinion (United
States v. Merrill, 340 Fed. Appx. 976, 978 (5th Cir.
2009)) and stated that “movant’s ‘own affidavit,
containing self-serving conclusional allegations, is
insufficient’ to warrant habeas relief.” (A-12). The
Petitioner respectfully submits that several courts –
including this Court – have held that a movant’s
specific assertions in his or her own affidavit are
sufficient to require an evidentiary hearing in a § 2255
proceeding. See Machibroda v. United States, 368 U.S.
487, 495 (1962) (holding that the petitioner in that
case was entitled to an evidentiary hearing because his
“motion and affidavit contain[ed] charges which [we]re

15
detailed and specific”); United States v. Cardenas, 302
Fed. Appx 14, 17 (2d. Cir. 2008) (“Cardenas made
sufficiently specific allegations under oath to raise
issues of material fact as to the existence of the alleged
oral agreement, and the record was insufficient to deny
the motion without further inquiry.”); Raines v. United
States, 423 F.2d 526, 532 (4th Cir. 1970) (“Without
holding a hearing, and solely on the basis of affidavits,
the

district

judge

resolved

the

facts

against

Machibroda. The Supreme Court held this procedure
to be error, because the case was not one where ‘the
motion and the files and records . . . conclusively show
that the prisoner is entitled to no relief.’ Although
Machibroda’s assertions were ‘improbable,’ they were
not

‘incredible,’

and

therefore a

hearing

was

required.”); Rouse v. Brown, 2010 WL 569749 (W.D.
Kent. Feb. 11, 2010) (granting a § 2255 hearing based

16
on the allegations set forth in the petitioner’s motion
and his own affidavit). See also Bryan v. United States,
492 F. 2d 775, 783 (5th Cir. 1974) (“More important,
Machibroda seems clearly to allow a hearing on the
strength of the petitioner’s own affidavit without
supporting papers.”) (Goldberg, J., concurring in part
and dissenting in part).
In

the

report

and

recommendation,

the

magistrate judge further stated that “Movant,
however, was aware of the[] facts [alleged in his § 2255
motion] prior to entering his guilty plea . . . and chose
to plead guilty.” (A-24-25). As explained above, the
Petitioner pled guilty because defense counsel
erroneously informed him that he had no viable
defense in this case.

A guilty plea is not entered

knowingly, intelligently, and voluntarily if the
defendant does not have knowledge of viable defenses

17
to the crime. See Ivy v. Caspari, 173 F.3d 1136, 1143
(8th Cir. 1999) (“In addition to the failure of the trial
court and counsel to explain fully the elements of the
offense

to

which

Ivy

pleaded

guilty,

other

circumstances cast doubt on the voluntariness of Ivy’s
plea. . . . Counsel’s failure to advise Ivy of the possible
defense of mental illness and his failure to bring the
report to the trial court’s attention are additional
indicia of his ineffective assistance and provide
additional grounds for the district court’s finding that
Ivy’s plea was not knowingly and voluntarily
entered.”); McGraw v. United States, 106 F.3d 391,
1997 WL 34431 at *1 (4th Cir. 1997) (unpublished)
(“‘Because a guilty plea is valid only if it represents a
knowing and voluntary choice among alternatives,’
defense counsel has a duty to investigate possible
defenses and to advise the defendant so that he can

18
make an informed decision.”) (quoting Savino v.
Murray, 82 F.3d 593, 599 (4th Cir. 1996)).

As

explained above and in the § 2255 motion, after the
Petitioner was convicted, he conducted his own
research and consulted with different counsel and he
learned, for the first time, that he did, in fact, have
viable defenses in this case.

Had defense counsel

properly told the Petitioner about his viable defenses
in this case, the Petitioner would not have entered a
guilty plea and instead would have proceeded to trial
and presented these defenses.
For all of these reasons, the Petitioner submits
that he has made “a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). The
Petitioner’s claim is a matter debatable among jurists
of reason. Therefore, the Fifth Circuit should have
granted a certificate of appealability for this claim.

19
To be entitled to a certificate of appealability,
the Petitioner needed to show only “that jurists of
reason could disagree with the district court’s
resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El
v. Cockrell, 537 U.S. 322, 327 (2003). The Petitioner
has satisfied this requirement because he has shown
that reasonable jurists could disagree with the district
court’s conclusion. The Petitioner therefore asks this
Court to address this important issue by either
accepting this case for plenary review or remanding it
to the Fifth Circuit for the consideration it deserves.
2.
Defense counsel rendered ineffective
assistance of counsel by failing to object to the
sentencing court’s consideration of an
impermissible factor during the sentencing
hearing.
In his § 2255 motion, the Petitioner alleged that

20
defense counsel rendered ineffective assistance of
counsel by failing to object to the sentencing court’s
consideration of an impermissible factor during the
sentencing hearing. The Petitioner entered a guilty
plea to count one of the superseding indictment –
enticement of a minor (pursuant to 18 U.S.C. §
2422(b)). § 2422(b) states:
Whoever, using the mail or any
facility or means of interstate or foreign
commerce, or within the special maritime
and territorial jurisdiction of the United
States knowingly persuades, induces,
entices, or coerces any individual who has
not attained the age of 18 years, to
engage in . . . any sexual activity for
which any person can be charged with a
criminal offense, or attempts to do so,
shall be fined under this title and
imprisoned not less than 10 years or for
life.
The “Factual Resume” that was filed by the parties in
this case states the following:
To establish the offense alleged in

21
Count One of the Superseding
Information, the government must prove
the following elements beyond a
reasonable doubt:
First:
That the defendant
knowingly used a facility or means
of interstate commerce, that is, the
telephone or the Internet, to
persuade, induce, entice, or coerce,
an individual under the age of
eighteen (18) to engage in sexual
activity, or attempted to do so;
Second:
That the defendant
believed that such individual was
less than eighteen (18) years of
age; and
Third: That the defendant could
have been charged with a criminal
offense for engaging in the
specified sexual activity.
(A-52-53).

During the sentencing hearing, the

sentencing judge stated the following:
For all intents and purposes,
although the crime is charged differently
in federal court, you raped a child. You
didn’t do it once. You didn’t do it twice.
You did it twenty times. You did it in
your own home with your own child
there. And it is a monstrous act for

22
which you and you alone bear
responsibility. And you did it in the
context of a position of ultimate trust, a
minister, a youth minister, an
accountability youth minister. I can’t
think of a structure in which a person
should be expected to exercise more
exemplary behavior than that.
(A-59). The sentencing judge also stated:
You are a person who raped a
child. And let’s not call it something else,
because that’s what you did. And I want
to hear from you – I wanted to hear from
you and didn’t – genuine remorse, not as
it affects you, but as it affects “Jane” and
your family, but particularly “Jane,”
because although your – your child and
your wife and your parents and your
in-laws and your many friends who are
here in the courtroom are having to deal
with very severe consequences of your
behavior, the number one person to deal
with the consequences of your behavior is
“Jane.” And I never heard you express
genuine remorse and regret about that.
It’s as if there is some abstraction to this.
And it’s not abstract.
(A-62-63). Finally, the sentencing judge stated:
. . . And you have not arrived at what I

23
believe is the point of genuine remorse
and recovery from what you did. . . .
....
. . . And that your wife and friends
have forgiven you for that is a wonderful
gift to you, but I don’t. I’m not your Lord
and maker. And you will have to see
your Lord and maker at the end of your
life to see if you have made up for what
you did. But for me, this is not about
forgiveness. I do not forgive you. It’s not
my role to do that.
(A-64-65).
As explained above, in this case, the Petitioner
entered a guilty plea to one charge – enticement of a
minor pursuant to 18 U.S.C. § 2422(b). The Petitioner
did not enter a guilty plea to the charge of “rape.” As
acknowledged by the sentencing judge, “the crime is
charged differently in federal court.” (A-59). In fact,
the third element of the federal charge is that the
Petitioner “could have been charged with a criminal
offense for engaging in the specified sexual activity.”

24
(emphasis added). Notably, the Petitioner was charged
in state court with sexual battery. The appropriate
sentence for that charge will be decided by the state
court judge. But it was a violation of the Petitioner’s
constitutional due process rights4 for the sentencing
judge in this case to consider a separate pending
charge when imposing the sentence. See, e.g., Yisrael
v. State, 65 So. 3d 1177, 1178 (Fla. 1st DCA 2011)
(holding that “[c]onsideration of pending . . . charges
during sentencing results in a denial of the defendant’s
due process rights”).5

4

5

See U.S. Const. amend. V.

See also Gray v. State, 964 So. 2d 884 (Fla. 2d DCA 2007)
(holding that the trial court improperly considered pending
charges during sentencing); Seays v. State, 789 So. 2d 1209, 1210
(Fla. 4th DCA 2001) (holding that the trial court improperly
considered pending attempted murder charge). Cf. State v. Potts,
526 So. 2d 63, 63 (Fla. 1988) (“The state through its criminal
process may not penalize someone merely for the status of being
under indictment or otherwise accused of a crime, as it has
attempted to do here.”).

25
Moreover, the Petitioner was not on notice that
he would be sentenced for a “rape” – as he was not
charged with such a crime in the instant case – and
therefore sentencing the Petitioner for a crime for
which he was not given notice further violated the
Petitioner’s constitutional due process rights.6 The
Petitioner is aware that under the current state of the
law, a sentencing judge is permitted to consider
“relevant conduct.” But as explained by the Honorable
Gilbert Stroud Merritt in United States v. Silverman,
976 F.2d 1502, 1527 (6th Cir. 1992), “[t]he due process
violation occurs in the instant case because, at the time
the plea must be entered, the defendant receives no
notice of the additional crimes for which the court will
6

The Due Process Clause carries fundamental rights of
notice to the defendant. First among these is the right to know
the potential sanctions for criminal conduct. See Calder v. Bull,
3 Dall. 390 (1797). The requirement that defendants receive fair
notice as a matter of due process under the Fifth Amendment is
fundamental. See Cole v. Arkansas, 333 U.S. 196, 201 (1948).

26
enhance the defendant’s sentence.”

(Merritt, C.J.,

dissenting).
In the instant case, defense counsel failed to
object during the sentencing hearing when the
sentencing judge relied upon the Petitioner’s pending
state court rape charge when imposing the sentence in
this case.

The Petitioner therefore satisfies the

Strickland standard.
Accordingly, the Petitioner has made “a
substantial showing of the denial of a constitutional
right” (i.e., his constitutional right to effective
assistance of counsel). The district court’s resolution of
this claim is “debatable amongst jurists of reason.”
Hence, the Petitioner meets the standard for obtaining
a certificate of appealability – this issue is “adequate
to deserve encouragement to proceed further.”
Miller-El, 537 U.S. at 336. The Petitioner therefore

27
asks this Court to address this important issue by
either accepting this case for plenary review or
remanding it to the Fifth Circuit for the consideration
it deserves.

28
I. CONCLUSION
The Petitioner requests that the Court grant the
petition for writ of certiorari.
Respectfully Submitted,
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

